fan

OCKLE

 

2311 Douglas Street CA L 1 Briefs E-Mail Address:
Omaha, Nebraska 68102-1214 ega ; a contact@cocklelegalbriefs.com
st. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 21-121

CHRISTIANA TAH; RANDOLPH MCCLAIN,
Petitioners,
Vv.
GLOBAL WITNESS PUBLISHING, INC..
GLOBAL WITNESS,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the AMICI CURIAE BRIEF OF
THE BEVERLY HILLS BAR ASSOCIATION, LITIGATION SECTION AND THE
CALIFORNIA SOCIETY OF ENTERTAINMENT LAWYERS IN SUPPORT OF PETITION FOR
WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 1923 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of August. 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
A RENEE J. GOSS Konse. 9. eon’ Qudraw- Kh. Chk

 

My Comm. Exp. Septamber 5, 2023

Notary Public Affiant 41402
